   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




                   National Oceanic and
              Atmospheric Administration


      Audit of Indirect Cost Plans and Rates
Pacific States Marine Fisheries Commission
                           Portland, Oregon


                        Final Report No. OIG-11-025-A
                                          May 19, 2011




                FOR PUBLIC RELEASE



                     OIG Office of Audit and Evaluation
                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           Office of Inspector General
                                                           Washington. D.C. 20230




May 19,2011

MEMORANDUM FOR:                Arlene Simpson-Porter, Director
                               NOAA Grants Management Division


FROM:                          Ann C. Eilers  J t fZ~
                                                   AA
                               Principal Assistant Inspector General
                                 for Audit and Evaluation

SUBJECT:                       Audit ofIndirect Cost Plans and Rates
                               Pacific States Marine Fisheries Commission
                               Portland, Oregon
                               Final Report No. OIG-11-025-A

We are attaching a copy of the audit report on the Pacific States Marine Fisheries Commission's
indirect cost plans and rates and administrative rates for the fiscal years ending June 30, 2002,
through 2008 for your action in accordance with DAO 213-5, "Audit Resolution and Follow-up."
This is the first of three related reports. We are currently evaluating the Commission's response
to the second draft report, which presents the results of our audit of two NOAA cooperative
agreements awarded to the Commission. We expect to issue the third report in final form,
presenting the results of our audit of three task orders under a NOAA contract, to the NOAA
contracting officer concurrently with the final report to you on the two cooperative agreements.

The original of this indirect cost report has been sent to the Pacific States Marine Fisheries
Commission. The Commission has 30 days from the date of the transmittal to submit comments
and supporting documentation to you (we have attached a copy of our transmittal letter for your
records). A copy of this report will also be made available to the public on the Office of
Inspector General (OIG) website.

Under DAO 213-5, you have 75 calendar days from the date of this memorandum to reach a
decision on the actions you propose to take on each audit finding and recommendation and to
submit an audit resolution proposal to this office. However, because all three of these reports
share indirect cost issues, we recommend that you, the NOAA Contracting Officer, and the
Department's Indirect Cost Coordinator consider all three reports and collaborate to ensure
uniform, consistent resolution proposals and action plans. Therefore, we offer to make the
deadline for your response to this report identical to the deadline established for responses to the
final cooperative agreement and contract reports.

As applicable, the written proposals must include the rationale and/or legal basis for reinstating
any questioned cost in the report and should refer to any supporting documentation relied on.
Your comments should also address any funds to be put to better use cited in the reports. Under
the DAO, OIG must concur with your proposal before it may be issued as a final determination
and implemented. The DAO prescribes procedures for handling any disagreements we may have
with the audit resolution proposal. Please also copy us when the audit determination letter is sent
to the auditee and when you issue your accounting notice.

Any information or inquiry regarding this final report should be directed to Jerry McMahan,
Assistant Regional Inspector General, at (404) 730-2065, and should reference the report title.


Attachment


cc:    Barry Berkowitz, Senior Acquisition Executive and Director, Office of
         Acquisition Management
       Mitchell 1. Ross, Director, NOAA Acquisition and Grants Office
       John Stein, Ph.D., Acting Science Director, NOAAINWFSC
       Susan Sherrell, Director, NOAA Western Acquisition Division
       William Stelle, Jr., Regional Administrator, NOAAINMFS NWR
       Mack Cato, Director, NOAA Audit and Information Management Office
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Offic~ of Inspector General
                                                         Washington. D.C. 20230




May 19,2011

Mr. Randy Fisher, Executive Director
Pacific States Marine Fisheries Commission
205 SE Spokane Street, Suite 100
Portland, OR 97202

Dear Mr. Fisher:

Enclosed is a copy of our final audit report concerning the Commission's indirect cost plans and
rates and administrative rates for the fiscal years ending June 30, 2002, through 2008. We
evaluated and considered your March 18, 2011, response to the draft audit report in preparation
of this final report. Your response, excluding the 18 attachments, appears at appendix C; a
synopsis of your response and our comments is also included as appendix D. Copies of the
attachments are on file at our office and will be made available for review upon request. A copy
of this final audit report will also be made available to the public at OIG's website.

This letter is notice of your opportunity and responsibility to review the report and develop a
complete response that addresses each audit finding and recommendation. If you believe the final
report is in error in any respect, or if you disagree with any of the findings and recommendations,
it is important that you explain the error or your reasons for disagreement and submit to the
department evidence that supports your position. You should also explain how each documentary
submission supports the position you are taking; otherwise, we may be unable to evaluate the
information.

Your complete response will be considered by the Department in arriving at a decision on what
action to take with respect to the findings and recommendations in the audit report. Enclosure 1
is an explanation of applicable administrative dispute procedures.

Your response to this report must be postmarked no later than 30 days from the date of this letter.
There will be no extensions to this deadline. If you do not submit a response within the required
time frame you will have no other opportunity to submit comments, arguments or documentation
before the Department makes a decision on the audit report. Please send your response
(including documentary evidence) to:
       Arlene Simpson-Porter, Director
       NOAA Grants Management Division
       Silver Spring Metro Center Building 2 (SSMC2)
        th
       9 Floor
       1325 East-West Highway
       Silver Spring, MD 20940-3280

Please send a copy of your response to:

       Jerry McMahan, Assistant Regional Inspector General for Audits
       United States Department of Commerce
       Office of Inspector General
       401 W. Peachtree Street NW, Suite 2742
       Atlanta, GA 30308

If you have any questions about the final report or the audit process, please call Jerry McMahan
at (404) 730-2065 and refer to this report's title.




SJ: t £It~
Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation

Enclosures

cc:    Barry Berkowitz, Senior Acquisition Executive and Director, Office of
        Acquisition Management
       Mitchell J. Ross, Director, NOAA Acquisition and Grants Office
       Susan Sherrell, Director, NOAA Western Acquisition Division
       Mack Cato, Director, NOAA Audit and Information Management Office
                                                                                        Enclosure 1


                                     NOTICE TO AUDITEE
                                    Financial Assistance Audits


1. Audit requirements applicable to a particular financial assistance award may be established
   by law, regulation, policy, or the terms of the recipient's financial assistance agreement with
   the Department of Commerce.

2. The results of any audit will be reported to the bureau or office administering the financial
   assistance award and to the recipient/auditee, unless the Inspector General of the Department
   determines that it is in the Government's interest to withhold release of the audit report.

3. The results of an audit may lead to adverse consequences for the auditee, including but not
   limited to the following actions (which are subject to applicable laws and regulations):

    •   suspension and/or termination of current awards;

    •   referral of identified problems to other federal funding agencies and entities as deemed
        necessary for remedial action;

    •   denial of eligibility for future awards;

   •    canceling the authorization for advance payment and substituting reimbursement by
        check;

   •    establishment of special conditions in current or future awards; and,

   •    disallowance of costs, which could result in a reduction in the amount of federal
        payments, the withholding of payments, the offsetting of amounts due the Government
        against amounts due the auditee, or the establishment of a debt and appropriate debt
        collection follow-up (including referrals to collection agencies).

   Because of these and other possible consequences, an auditee should take seriously its
   responsibility to respond to audit findings and recommendations with explanations and
   evidence whenever audit results are disputed and the auditee has the opportunity to comment.

4. To ensure that audit reports are accurate and reliable, an auditee may have the following
   opportunities to point out errors (of fact or law) that the auditee believes were made in the
   audit, to explain other disagreements with audit findings and recommendations, to present
   evidence that supports the auditee's positions, and to dispute final recommendations:

   II   During the audit, the auditee may bring to the attention of the auditors at any time
        evidence which the auditee believes affects the auditors' work.
"   At the completion of the audit on-site, as a matter of courtesy, the auditee is given the
    opportunity to have an exit conference to discuss the preliminary audit findings and to
    present a clear statement of the auditee's position on the significant preliminary findings,
    including possible cost disallowances.

•   Upon issuance of the draft audit report, the auditee may be given the opportunity to
    comment and submit evidence during the 30-day period after the transmittal of the report.
    (There are no extensions to this deadline.)

•   Upon issuance of the final audit report, the auditee is given the opportunity to comment
    and to present evidence during the 30-day period after the transmittal of the report.
    (There are no extensions to this deadline.)

•   Upon issuance of the Department's decision (the "Audit Resolution Determination"), on
    the audit report's findings and recommendations, the auditee has the right to appeal for
    reconsideration within 30 calendar days after receipt of the Determination letter if monies
    are due the government. (There are no extensions to this deadline.) The Determination
    letter will explain the specific appeal procedures to be followed.

•   After an appeal is filed, or after the opportunity for an appeal has expired, the Department
    will not accept any further submissions of evidence concerning an auditee's dispute of the
    Department's decisions on the resolution of the financial assistance audit. If it is
    determined that the auditee owes money or property to the Department, the Department
    will take appropriate collection action but will not thereafter reconsider the merits of the
    debts.

•   There are no other administrative appeals available in the Department.
                                      Re
                                       eport
                                         port In Brief
                                                U.S. Department of Commerce Office of Inspector General
                                                                     May 19, 2011



Background                              National Oceanic and Atmospheric Administration
The Pacific States Marine Fisher-
ies Commission is a quasi-gov-
ernmental organization operat-
                                        Audit of Indirect Cost Plans and Rates
ing under an interstate compact         Pacific States Marine Fisheries Commission
authorized by federal statute.
It is composed of five member           Portland, Oregon (OIG-11-025-A)
states (Alaska, California, Idaho,
Oregon, and Washington) that            What We Found
work together to better utilize and
protect the resources of fisheries The Commission did not comply with the minimum requirements necessary to recover
under their jurisdictions.
                                   indirect costs under federal awards. We found significant deficiencies in every area of
Most of the Commission’s funding indirect cost we tested. The Commission did not submit, certify, or adequately support
comes from the administration      its indirect cost rate proposals. In addition, the Commission’s unsubmitted indirect cost
of federal contracts and financial
assistance agreements related to
                                   proposals and rates were not allowable in accordance with federal guidelines in that (1)
fisheries resource management.     implementation of its cost accounting system was inadequate; (2) it had not established an
Since 2003 the Department of       adequate indirect cost methodology or policies, procedures, and controls; (3) its method of
Commerce has provided most of
                                   distributing costs was inequitable; and (4) it had not adjusted proposed indirect cost rates
the Commission’s federal funding
and has acted as its cognizant     to reflect actual costs. Therefore, all indirect costs claimed by the Commission during the
federal agency. In this capacity,  audit period are called into question; none of the $15.6 million in costs or the $2.9 million
the Department is responsible for  in administrative fees recovered by the Commission during the audit period is allowable for
reviewing, negotiating, and ap-
proving the Commission’s indirect federal participation.
cost rates.
                                        What We Recommended
Why We Did This Review
Federal cost principles require
                                        Because the Department acts as the Commission’s cognizant federal agency, we directed
governmental units desiring to          our recommendations to the NOAA Grants Officer:
claim indirect costs under federal
awards to prepare rate propos-
                                        1. Require the Commission to comply with minimum federal standards for financial man-
als, certifications, and specified         agement, such as improving its cost accounting system; establishing adequate indirect
documentation. These principles            cost policies; and developing and documenting indirect cost rate proposals and support-
also set forth the rules for develop-
                                           ing documentation.
ing, supporting, and negotiating
acceptable indirect cost rates. In      2. Establish a deadline for the Commission to develop and submit revised indirect cost
addition, Commerce policy re-
                                           plans and certifications in accordance with federal cost principles and department po-
quires that acceptable indirect cost
rates be developed by grantees             lices, and recover any excess amounts claimed by the Commission.
and included in approved award
                                        3. Suspend payment of indirect costs under all current awards and prohibit recovery for
budgets.
                                           future awards until the Commission develops and negotiates acceptable indirect cost
During the audit period (July 1,           rates.
2001, through June 30, 2008), the
Commission recovered more than          4. Advise the Commission that its unsupported fees and assessments are unallowable for
$15 million in indirect costs, as          federal participation on all current and future awards, and require the Commission to
well as almost $3 million in ad-
                                           identify and remit all such assessments claimed from 2002 to the present.
ministrative fees. The main objec-
tive of our audit was to determine      5. Advise the Department’s Indirect Cost Program Coordinator in the Office of Acquisi-
whether the Commission complied
                                           tion Management of the results of this audit and our recommendations. The Depart-
with federal cost principles and
departmental requirements for              ment, in its cognizant agency role, should then immediately notify all of its bureaus
recovering indirect costs.                 as well as other federal agencies that have provided federal financial and acquisition
                                           assistance to the Commission from 2002 through the present.
U.S. Department of Commerce                                                                                                       Final Report
Office of Inspector General                                                                                                       May 19, 2011


                                                                  Contents


Introduction ......................................................................................................................................1 

Findings and Recommendations ......................................................................................................3 

I.  The Commission Did Not Submit, Certify, or Adequately Support Indirect Cost Rate
    Proposals ....................................................................................................................................3 

II.  The Commission’s Unsubmitted Indirect Cost Proposals were Inadequate, and Rates and
     Claims Were Unallowable .........................................................................................................6 

III.  Conclusion ...............................................................................................................................11 

IV. Subsequent Events ...................................................................................................................12 

V.  Recommendations ....................................................................................................................12 

Appendix A: Objectives, Scope, and Methodology.......................................................................14 

Appendix B: Detail of Indirect Cost Audit ...................................................................................16 

Appendix C: Commission Response (Cover Letter Only) ..........................................................21 

Appendix D: OIG Comments on Commission Response ..............................................................46 
U.S. Department of Commerce                                                                          Final Report
Office of Inspector General                                                                          May 19, 2011


                                                Introduction


The Pacific States Marine Fisheries Commission is a quasi-governmental organization operating
under an interstate compact authorized by federal statute in 1947. It is composed of five member
states (Alaska, California, Idaho, Oregon, and Washington) that work together “to promote the
better utilization of fisheries, marine, shell, and anadromous, which are of mutual concern, and to
develop a joint program of protection and prevention of physical waste of such fisheries in all of
those areas of the Pacific Ocean and adjacent waters over which the compacting states jointly or
separately now have or may hereafter acquire jurisdiction.”1 Its principal offices are located in
Portland, Oregon.

Outside of nominal state membership dues and some funds received under agreements with
states, most of the Commission’s funding comes from the administration of federal contracts and
financial assistance agreements related to fisheries resource management. From 2002 through
2009, approximately 89 percent of the Commission’s revenue came from federal financial
assistance and contracts. Since 2003 the Department of Commerce has provided the majority of
the Commission’s federal funding and has held cognizant federal agency status for indirect cost
rate negotiation. In this capacity, the Department is responsible for reviewing, negotiating, and
approving the Commission’s indirect cost rates. These rates apply to all federal agencies
providing funds to the Commission unless prohibited or limited by statute.2

This report presents the results of our audit of the Commission’s indirect cost plans, claimed
rates, and administrative assessments for its fiscal years ending June 30, 2002, through June 30,
2008.3
During the audit period (July 1, 2001, through June 30, 2008), the Commission recovered
$15,635,147 of indirect costs—$8,532,322 from Commerce and $7,102,825 from other federal
agencies. The Commission also recovered $2,885,365 in administrative fees—$2,116,782 from
Commerce and $768,583 from other federal agencies. The objectives of our audit were to
determine whether the Commission’s indirect cost and administrative assessment rate
computations

    1. were supported by and consistent with certified indirect cost proposals and established
       rate negotiations;
    2. produced an equitable allocation of costs to projects and activities;
    3. were allowable in accordance with the requirements of Office of Management and
       Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian Tribal
       Governments;

1
  Pacific States Marine Fisheries Commission Compact, Article I.
2
  OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, attachment E at E.1. and 3.
3
  The results of this indirect cost audit will be used as the basis for questioning indirect cost claimed by the
Commission under NOAA cooperative agreement numbers NA17FN2284 and NA17FN2536. These agreements
cover the periods February 1, 2002, through June 30, 2006, and June 1, 2002, through August 31, 2007, respectively.
We will issue a separate audit report covering these agreements.


                                                        1 
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                            May 19, 2011


   4. were appropriately and consistently applied; and
   5. were adjusted when appropriate.

See appendix A for details regarding our audit objectives, scope, and methodology.

We found the Commission did not comply with the minimum requirements necessary to recover
indirect costs under federal awards. Therefore, all indirect costs claimed during the audit period
are called into question. The details of our findings are described in the following pages.
Numerous examples of unallowable costs, unsupported costs, inconsistently treated expenses,
and direct costs treated as indirect are included as appendix B.

On March 18, 2011, the Commission responded to our draft report with comments and
supporting documentation, which we have evaluated and considered in preparation of this final
report. Due to the volume of the response, we included only the full text of the Commission’s
cover letter at appendix C; we provided our comments in appendix D. A copy of the
Commission’s complete response, including 18 attachments, is available for review at our office.




                                                2 
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                             May 19, 2011


                                    Findings and Recommendations


Federal cost principles require governmental units desiring to claim indirect costs under federal
awards to prepare indirect cost rate proposals, certifications, and specified documentation. These
principles also set forth the rules for developing, supporting, and negotiating acceptable indirect
cost rates.4 In addition, Department of Commerce policy stipulates that indirect costs are not
recoverable under the Department’s financial assistance awards unless they are supported by
acceptable indirect cost rates developed in accordance with federal cost principles and authorized
by inclusion in approved award budgets. Department policy also limits indirect cost recovery to
the lesser of (1) the amount authorized in the approved award budget, or (2) the federal share of
the total indirect cost allocable to the award computed using the indirect cost rate approved by a
cognizant or oversight federal agency and current at the time the cost was incurred (provided that
the rate used was approved on or before the award end date).5

The Commission did not comply with the minimum requirements necessary to recover indirect
costs under federal awards. It did not submit, certify, or adequately support its indirect cost rate
proposals. In addition, the Commission’s unsubmitted indirect cost proposals and rates were not
allowable in accordance with OMB Circular A-87 in that (1) implementation of its cost
accounting system was inadequate; (2) it had not established an adequate indirect cost
methodology or policies, procedures, and controls; (3) its method of distributing costs was
inequitable; and (4) it had not adjusted proposed indirect cost rates to reflect actual costs.
Therefore, all indirect costs claimed by the Commission during the audit period are called into
question.

I.    The Commission Did Not Submit, Certify, or Adequately Support Indirect Cost Rate
      Proposals

The Commission retained its indirect cost proposals on file rather than submitting them to the
Department of Commerce, despite the National Oceanic and Atmospheric Administration
(NOAA) Grants Officer’s multiple requests for the proposals. In addition, except for the
certification of its fiscal year 2007 indirect cost rate, which was submitted to the Department of
Commerce on May 1, 2008—several months beyond the 6-month deadline—the Commission
had not prepared, signed, or submitted indirect cost rate certifications for fiscal years 2002
through 2008.6 Thus, none of the indirect cost rates the Commission used to recover
$15.6 million (with over half of that amount for Commerce) during those years had been

4
  OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, attachment E.
5
  This departmental policy appears in all of the editions of its Financial Assistance Standard Terms and Conditions
applicable to the audit period. In December 2007 and April 2008, Commerce issued an updated and expanded
indirect cost policy specifically requiring annual submission of indirect cost certificates to include not only the
provisions of OMB Circular A-87, attachment E at D.3., but also to make the certificates subject to the provisions of
the Program Fraud Civil Remedies Act of 1986 (31 U.S.C. § 3801 et seq.), the False Claims Act ( 31 U.S.C. § 3729
et seq.), and 18 U.S.C. § 1001 and 18 U.S.C. § 287, prohibiting false statements.
6
  During our audit fieldwork in late March 2009, the Commission submitted a certificate of indirect cost and
administrative fees along with its indirect cost rate proposal for fiscal year 2008 in support of financial assistance
applications for fiscal year 2009.


                                                          3 
U.S. Department of Commerce                                                                     Final Report
Office of Inspector General                                                                     May 19, 2011


negotiated or accepted by the Department for use by all federal agencies, and only one had been
certified.

A. The Commission Did Not Submit Indirect Cost Proposals to the Department

In 1996 the Commission negotiated an indirect cost rate agreement with the Bonneville Power
Administration, a component of the Department of Energy, which at that time was the
Commission’s cognizant federal agency for indirect costs. The agreement established fixed
indirect cost rates with carry-forward provisions for the Commission’s fiscal years 1993 through
1997, and then lapsed. Starting in 2003, based on its providing the majority of the Commission’s
federal funding, Commerce assumed federal agency cognizance for the Commission.

Federal cost principles do not require governmental entities such as the Commission to submit
indirect cost proposals unless requested by their cognizant agency.7 However, Department
conditions specifically required the Commission to submit the “documentation (indirect cost
proposal, cost allocation plan, etc.)” necessary to evaluate its indirect cost methodology or
negotiate a fixed indirect cost rate, and directed that a copy of the letter transmitting the
submission also be sent to the NOAA Grants Officer.8 Subsequent updates of the standard
conditions issued in 2005, 2007, and 2008 also required grant recipients to submit indirect cost
proposals annually within 6 months after the close of the recipients’ fiscal years.9 The Grants
Officer repeatedly noted that the Commission’s negotiated indirect cost rate had expired and
directed the Commission to comply with Department of Commerce Financial Assistance
Standard Terms and Conditions regarding indirect costs.

B. The Commission Did Not Certify Indirect Cost Proposals

In addition to setting forth the specific documentation required to support indirect cost rate
proposals, federal cost principles

    •   require state and local recipients to prepare and sign indirect cost certificates to
        accompany the proposals, and
    •   permit the Department to disallow all indirect cost when the recipient has not submitted a
        certified proposal in accordance with requirements.10

Commerce’s Financial Assistance Standard Terms and Conditions also require recipients for
which the Department is cognizant to submit indirect cost proposals and supporting
documentation and certifications for review and negotiation of rates.

Indirect cost certifications attest that the recipient properly prepared its indirect cost rate proposal
in accordance with award terms and conditions and federal cost principles. In addition,


7
  OMB Circular A-87, attachment E at D.1.b.
8
  Department of Commerce Financial Assistance Standard Terms and Conditions (2001 and 2004) at A.05.c.1. and
(2005 and 2007) at A.05.c.1 (a) and c.1.2.
9
  Department of Commerce Financial Assistance Standard Terms and Conditions (2005, 2007, and 2008) A.05.c.3.
10
   OMB Circular A-87, attachments A at H and E at D.3.


                                                      4 
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                            May 19, 2011


certifications assert that unallowable costs have been properly excluded from the indirect cost
pool and documented in the cost allocation plan. The certifications specifically provide that

     •   all costs are properly allocable to federal awards on the basis of a beneficial or causal
         relationship,
     •   the same costs have not been claimed both as direct and indirect,
     •   similar types of costs have been accounted for consistently within and between
         accounting periods, and
     •   the federal government will be notified of any accounting changes that would affect the
         predetermined rates.11

Commission personnel stated that they had tried to submit their indirect cost proposals for review
but had been told, despite award provisions and the Grants Officer’s directions to the contrary,
that the Commission had only to retain its indirect cost rate proposals on file in the event of an
audit. The Commission did not provide evidence that the NOAA Grants Officer had granted it an
exemption from award terms and conditions.

C. The Commission Did Not Retain Required Documentation in Support of Its Indirect Cost
   Plans

The Commission retained its indirect cost rate proposals for 2002 through 2008 on file.
However, it had not developed and retained the required documentation in support of its
proposals.12 The Commission lacked

     •   subsidiary worksheets and other relevant data, cross referenced and reconciled to
         supporting financial data;
     •   copies of financial data (such as financial statements, comprehensive annual financial
         report, executive budgets, accounting reports) upon which the rate is based;
     •   the approximate amount of direct base costs incurred under federal awards, broken out
         between salaries and wages and other direct costs;
     •   organization charts documenting the Commission’s organization structure for the
         proposal periods; and
     •   functional statements describing the duties and responsibilities of all Commission units.13




11
   In December 2007 and April 2008, Commerce issued updated and expanded indirect cost policy specifically
requiring annual submission of indirect cost certificates to include not only the provisions of OMB Circular A-87,
attachment E at D.3., but also to make the certificates subject to the provisions of the Program Fraud Civil Remedies
Act of 1986 (31 U.S.C. § 3801 et seq.), the False Claims Act (31 U.S.C. § 3729 et seq.), and 18 U.S.C. § 1001 and
18 U.S.C. § 287, prohibiting false statements.
12
   OMB Circular A-87, attachments E at B.1 and 2, D.1.a., and D.2.a. through d.
13
   OMB Circular A-87, attachment E at D.2.


                                                          5 
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                                 May 19, 2011


II.       The Commission’s Unsubmitted Indirect Cost Proposals were Inadequate, and Rates
          and Claims Were Unallowable

The Commission did not follow required procedures for submitting, supporting, and certifying its
indirect cost proposals. While it retained proposals in support of its claimed indirect cost rates for
2002 through 2008 on file, our initial tests of the Commission’s indirect cost proposals disclosed
that the proposals were so deficient as to be unauditable. We suspended our audit to provide the
Commission the opportunity to develop an indirect cost methodology and cost policy and to
prepare adjusted rate proposals. However, when we resumed the audit nearly 2 months later,
testing disclosed that the proposals, rates, and indirect costs claimed remained unallowable
because the Commission

      •    based its rate development on an inadequate cost accounting system;
      •    had not developed adequate indirect cost methodology, policies, procedures, or controls;
      •    used an indirect cost method that failed to equitably distribute indirect costs; and
      •    failed to adjust fixed indirect cost rates to reflect actual costs.

Consequently, we concluded that the indirect cost rates claimed were inadequately supported;
included unallowable, unsupported, inconsistently treated, and duplicative costs; and failed to
ensure equitable distribution of indirect costs to projects and programs in proportion to the
benefits received.

A. The Commission’s Cost Accounting System Was Inadequate

The Commission administers numerous projects and activities. Developing an acceptable
indirect cost proposal and accurately tracking and reporting the financial results of each project
and activity requires an adequate, accurate cost accounting system. While the Commission’s
automated accounting system appeared to offer the necessary cost accounting framework, its
underlying costing policy, which defined projects and costs as direct or indirect and provided for
identification and segregation of allowable and unallowable costs, was not clearly drawn or
consistently implemented. In addition, key controls over the cost accounting system were either
unavailable or overridden. We found that

      •    direct projects were misidentified as indirect activities;
      •    costs were improperly shifted from one direct project to another;
      •    costs were misclassified, unallowable, unsupported, or inconsistently identified as direct
           or indirect; and
      •    ancillary rates and fees duplicated or adversely affected the allocation of indirect costs.

Direct Projects Were Misidentified as Indirect Activities. Review of the Commission’s indirect
cost rates and conversations with staff revealed several activities that had been charged to the
indirect cost pool, but which were in fact direct activities that should have been assigned direct
project codes and assessed a fair share of indirect costs rather than being allocated to other direct
projects. For example, financial and executive personnel administered two fisheries disaster


                                                       6 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              May 19, 2011


programs totaling $230 million; front office staff engaged in event planning; accounting staff
performed bookkeeping for the Pacific Fisheries Management Council; and, early in the audit
period, accounting staff operated the Commission’s building rental activities.

These costs should have been charged to direct costs but were incorrectly charged to indirect
costs. Therefore, the costs and related revenues associated with the Commission’s actual
management and administration of these activities could not be readily isolated. Each of the cited
activities constituted a specific direct project that warranted a project number to which all related
expenses and revenues should have been charged; each activity should also have been included
in the Commission’s modified total direct cost base and absorbed its fair share of indirect cost.
Miscoding of projects and activities not only overstated the Commission’s indirect costs and
understated direct costs; it resulted in distributing the costs to projects that received no benefits
from them. It also precluded an accurate management assessment of the financial results of
individual projects and activities, as well as the financial results of overall Commission
operations.

Costs Were Improperly Shifted from One Direct Project to Another. During our concurrent
audit of two large NOAA cooperative agreements awarded to the Commission, we noted that it
did not always allocate labor and fringe benefits to projects based on the hours employees
recorded in its time distribution systems. These systems were capable of identifying time charged
to projects and activities, but the Commission improperly shifted labor and fringe benefits from
one direct project to another. Because the Commission allocated indirect costs to projects and
activities using a total modified direct cost base, which includes direct labor and related fringe
benefits, these shifts among projects resulted in inequitable allocations of indirect costs.

Costs Were Misclassified, Unallowable, Unsupported, or Inconsistently Identified as Direct or
Indirect. Commission management had a documented system of policies and procedures for
some administrative processes. However, the processes and controls necessary to ensure proper
identification and classification of costs as direct or indirect and allowable or unallowable were
missing or not consistently followed. Our tests of the Commission’s indirect cost pools for fiscal
years 2002 through 2008 disclosed numerous examples, which are detailed in appendix B, of
unallowable costs, unsupported costs, inconsistently treated expenses, and direct costs treated as
indirect.

Ancillary Rates and Fees Duplicated or Skewed Indirect Cost Allocations. The Commission
also applied ancillary rates and fees to recover elements of cost that it contended were not
recovered (in whole or in part) by applying its indirect cost rate. Commission management stated
that in select cases, such as the fisheries disaster awards and some projects funded by the State of
California, sponsoring agencies would not permit the Commission to directly charge the awards
for administrative or management services. Therefore, the Commission resorted to applying a
2 percent administrative assessment to the fisheries disaster monies and assessing a management
fee for California-sponsored projects to recoup these costs. The Commission also assessed the
2 percent administrative assessment on other pass-through funds and levied a data-processing fee
on select projects and indirect activities in several of the years audited. Our review disclosed that
the 2 percent administrative rate was unsupported and that it duplicated the Commission’s
indirect cost recoveries; and the administrative, management, and data processing assessments
all caused an inequitable distribution of indirect costs to projects:


                                                  7 
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                            May 19, 2011


       •   Administrative Assessments - The Commission applied a 2 percent administrative
           assessment to two fisheries disaster programs funded by two NOAA awards totaling
           $230 million. While the Commission recorded the administrative assessments and the
           revenues received, its project cost accounts did not identify, track, and account for the
           actual administrative costs incurred as a related direct project expense. Rather, the related
           expenses were recorded in the indirect cost pool.

           Similarly, the Commission also applied a 2 percent administrative assessment to pass-
           through monies of direct-billed projects, ostensibly to recover the costs of accounting,
           procurement, and management of the pass-through activities. As with the fisheries
           disaster awards, the Commission had no support for the rationale, methodology, or
           development of the 2 percent rate; therefore, the assessments on pass-through funds, like
           those for the fisheries disaster awards, are unallowable for federal participation.14 In
           aggregate, the Commission collected nearly $2.9 million in administrative assessments
           during the period under audit—$2.1 million from Commerce and $768,583 from other
           federal agencies.

       •   Management Fees - In lieu of directly charging for labor and related expenses, the
           Commission assessed management fees to cover its oversight of a number of projects
           funded by the State of California. The management fees were assessed based on the
           contractual agreement without adjusting for actual expenditures. The difference between
           the management fees received and the related expenses incurred for these direct projects
           was inappropriately included in the indirect cost pool and affected the calculation of the
           indirect cost rate. Therefore, the net costs were improperly allocated among all the
           Commission’s direct projects via the Commission’s indirect cost rate. During the fiscal
           periods under audit, the annual net increase in the indirect cost pool ranged from $12,999
           to $112,567.

       •   Data Processing Fees - The Commission charged select direct projects and indirect
           activities for data processing services, using budget projections of data processing costs
           and estimates of expected usage. Revenues received based on these projections, as well
           as actual data processing expenses incurred, were included in the Commission’s indirect
           cost pool. The Commission did not perform a year-end reconciliation of estimates to
           actual data processing cost and usage as required by OMB guidance.15 As a result, like
           the management fees the Commission applied to California-sponsored projects, the net
           funds were distributed to all direct projects via the Commission’s indirect cost rate.
           Without a reconciliation of budgeted assessments to actual expenses and usage, and
           adjustment of the data processing charged directly to projects, there is no assurance that
           the difference was equitably distributed. The Commission followed this practice for fiscal
           years 2002 through 2005 and 2007 through 2008, during which time the impact on the
           indirect cost pool ranged from a net annual understatement of $6,282 to a net annual
           overstatement of $114,619.



14
     The Commission has used the 2 percent administrative assessment from at least 1993 through the present.
15
     OMB Circular A-87, attachments E at F.2. and C at G.4.


                                                           8 
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                             May 19, 2011


         In fiscal year 2006, the Commission eliminated direct project and select indirect activity
         assessments for data processing and instead charged all actual data processing expenses,
         totaling $357,806, to the indirect cost pool. Not only was this a departure from the
         Commission’s past practices, it also perpetuated the problem of distributing data
         processing costs uniformly, but inequitably, to all direct projects via the indirect cost rate.
         Because neither method met the minimum standards for either support or consistent
         treatment of costs, we questioned the total of data processing costs claimed.

In cases such as the fisheries disaster awards and the State of California-sponsored projects,
where the Commission contends that the funding agencies imposed limits on the amount or
method of collection of administrative or management costs allowed, cost principles prohibit
shifting amounts allocable to, but not recoverable under, one award to another.16 Because the
Commission did not account for the costs it incurred to administer these projects as direct costs,
but rather absorbed the costs in the indirect cost pool, there is no assurance that the fees it billed
matched those it incurred, or that under-recoveries were not improperly shifted to other direct
projects through the Commission’s indirect cost rate.

B. The Commission Had Not Developed Adequate Indirect Cost Methodology, Policies,
   Procedures, and Controls

Coupled with an accurate, adequate, and properly implemented cost accounting system, an
indirect cost methodology would have provided a platform for developing, documenting, and
certifying the Commission’s annual indirect cost rate proposals. An indirect cost methodology
sets forth indirect cost recovery goals; documents the recovery method to be used; establishes the
costing policy; details the components of the indirect cost pool(s); identifies the direct cost
allocation base(s); establishes policies, procedures, and controls for developing, supporting,
certifying, submitting, using, and adjusting the rate(s); and delineates authorities and
responsibilities.

During the period audited, the Commission had not established an indirect cost methodology to
focus preparation of its indirect cost plan, promote consistency from year to year, exclude
unallowable costs, ensure that its indirect cost proposals produced an equitable distribution of
allowable indirect costs to projects in proportion to the relative benefits received, and
consistently guide its rate proposal and adjustment process.17

C. The Commission’s Indirect Cost Method Failed to Equitably Distribute Indirect Costs

Indirect cost distribution can take several forms but must result in an equitable distribution of
indirect costs to direct projects in proportion to the relative benefits derived.18 Where a
recipient’s indirect costs benefit its major functions in varying degrees, equity and federal cost
principles require that the costs be accumulated in separate groupings, each of which is allocated



16
   OMB Circular A-87, attachment A at C.3.c. and F.3.
17
   OMB Circular A-87, attachment A at C.1.e. and f., C.3.d., D.2., F.1; attachment E at B.1. and 2., D.1.a. and D.2.a.
through d.
18
   OMB Circular A-87, attachment E at C.2.c.


                                                          9 
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                             May 19, 2011


individually to benefiting activities by means of a base or bases that best measure the relative
benefits.19

Lacking an indirect cost methodology tailored to its specific circumstances, the Commission
elected to recover indirect costs using the simplified indirect allocation method, and distributed a
single indirect cost pool to projects on a single modified total direct cost base. This cost base
excludes extraordinary or distorting expenditures such as capital expenditures, subawards,
contracts, assistance payments, and pass-through funds and in the proper circumstances can be
an acceptable distribution base.

By employing a simplified method, the Commission in effect asserted that its major functions
benefited from indirect costs to approximately the same degree because that is the only case in
which this method is appropriate. However, as noted in previous sections of this report, in
addition to including misclassified, unallowable, unsupported, and duplicative costs in its single
indirect cost pool, the Commission also (1) included several items in the pool that benefited
some—but not all—projects and programs included in the total modified direct cost base
(page 8), (2) excluded some projects and activities from the base that should have absorbed a fair
share of indirect costs (page 6), and (3) improperly shifted labor and fringe benefits in the base
from one direct project to another (page 7). Therefore, even if all the other deficiencies presented
in this report were corrected, the Commission’s application of the indirect cost rates produced
using the simplified method would still fail to achieve the equitable distribution of indirect costs
required by federal cost principles and Commerce policy.

D. The Commission Did Not Adjust Fixed Indirect Cost Rates to Reflect Actual Costs

The Commission did not employ the carry-forward provision required to adjust its fixed indirect
cost rate to the actual, allowable indirect costs incurred. The carry-forward provision provides
for identifying the difference between estimated indirect costs and the actual, allowable indirect
costs for an entity’s fiscal year and carrying the difference forward as an adjustment to the fixed
rate computation for the subsequent fiscal year. As shown in table 1, the Commission made no
adjustment to its fixed indirect cost rates for fiscal years 2002 through 2005 and 2007 through
2008.20

          Table 1. Indirect Cost Rates Proposed and Accepted by Audit
                                                 Actual Indirect   Revised Actual
                                                   Cost Rate        Indirect Cost
                Attached to or  Indirect Cost     Proposed by      Rate Proposed
                 Proposed in    Rate Claimed           the              by the
                    Award          by the       Commission in Commission in                         Accepted
     Fiscal      Applications   Commission        January 2009       March 2009                     by Audit
      Year                     Rates as a Percent of Total Modified Direct Costs
      2002          15.1             15               16.09             15.74                         NONE
      2003           15              15               12.26             12.28                         NONE
      2004           15              15               13.32             11.47                         NONE


19
  OMB Circular A-87, attachment E at C.3. and 4.
20
  The Commission applied a 15 percent indirect cost rate to total modified direct cost each year since at least 1993
through 2006, when in mid-year it retroactively adjusted its claimed rate to 13 percent.


                                                         10 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              May 19, 2011


            Table 1. Indirect Cost Rates Proposed and Accepted by Audit
                                                 Actual Indirect   Revised Actual
                                                   Cost Rate        Indirect Cost
                Attached to or  Indirect Cost     Proposed by      Rate Proposed
                 Proposed in    Rate Claimed           the              by the
                    Award           by the      Commission in Commission in           Accepted
       Fiscal    Applications    Commission       January 2009       March 2009       by Audit
        Year                   Rates as a Percent of Total Modified Direct Costs
       2005          15               15                12              11.77           NONE
                               15 revised to 13
                                 as of July 1,
       2006          15             2005              15.03             16.25           NONE
       2007          13               13                13              13.25           NONE
                                                Version 1—14.47
       2008          13               13        Version 2—11.72         15.81           NONE
      Source: Commission


The Commission did not use the roll-forward adjustment provision in fiscal year 2006 either.
Rather, in mid-fiscal year 2006, the Commission introduced a different, unacceptable practice by
retroactively adjusting the indirect cost rate it initially applied in 2006 to an unsupported rate of
13 percent.

III.       Conclusion

As described in the first finding of this report, the Commission failed to properly prepare,
support, and certify its indirect cost rate proposals for fiscal years 2002 through 2008. The
Commission incurred indirect cost during the period under audit; however, until it brings its
indirect cost proposals and rates into compliance with federal requirements, none of its indirect
cost rates, claims, and administrative assessments for the audit period 2002 to 2008 are allowable
for federal participation.

The deficiencies described in finding I alone would result in disallowance of any indirect cost
claim. However, as described in finding II, we also tested and found significant deficiencies in
the cost accounting system; indirect cost methodology; policies, procedures, and controls; and
cost distribution system. These deficiencies would also have to be corrected for indirect cost
claims to be allowable.

We found significant deficiencies in every area of indirect cost we tested. The Commission’s
indirect cost claims did not meet the requirements of OMB Circular A–87. Consequently, none
of the $15.6 million the Commission recovered during that period is allowable for federal
participation.21 In addition, the NOAA Grants Officer should disallow any indirect cost claims
subsequent to the audit period for which the Commission has not corrected the deficiencies we
describe here. Finally, no administrative assessments or direct charges for data processing fees
should be allowed on on-going or future awards. See the following section, “Subsequent
Events,” for a discussion of events that occurred after the audit period.


21
     OMB Circular A-87, attachment A at C.3.d. and H; attachment E at D.


                                                         11 
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                            May 19, 2011


IV.        Subsequent Events

For its fiscal year ending June 30, 2009, the Commission used a proposed indirect cost rate of
13 percent, applied to modified total direct costs, to recover indirect cost of $1,151,951 from
Commerce and $997,155 from other federal sources. It also used a rate of 2 percent, applied to
pass-through funds and select projects, to collect administrative fees of $3,497,837 from
Commerce and $108,178 from other federal sources.22 The Commission based its 2009 proposed
indirect cost rate on an unacceptable computation for 2008. No support was provided for the
administrative fee.

As detailed in this report, we do not accept the Commission’s indirect cost rates or administrative
fees for fiscal years 2002 through 2008; therefore, the NOAA Grants Officer should not accept
indirect cost claims subsequent to 2008 until the Commission corrects the deficiencies described
in this report.

V.       Recommendations

We recommend the NOAA Grants Officer

       1. Require the Commission to comply with minimum federal financial management
          standards, to include the following:

           a. Improving its project cost accounting system and related controls to ensure that all
              direct projects are identified and assigned a project number, that related expenses and
              revenues are tracked, and that each project receives a fair share of indirect costs in
              proportion to the benefits received.

           b. Developing and documenting an indirect cost methodology to include the rationale
              for the rate(s), including underlying pool(s) and base(s) selected, a cost classification
              policy, and a process for identifying and excluding unallowable costs. This should
              include documenting whether the indirect cost base(s) selected provides for equitable
              distribution of indirect costs to projects in proportion to the benefits received and
              whether a single or multiple indirect cost pools better allocate costs to projects.

           c. Establishing the processes, procedures, and controls to develop, support, submit, and
              subsequently adjust indirect cost rate proposals to actual cost incurred, and
              identifying the related responsibilities and authorities.

           d. Documenting the Commission’s indirect cost rate proposals and certifications and
              submitting data in accordance with federal cost principles, the terms and conditions of
              the award, and specific directions of the Grants Officer.

       2. Establish a deadline for the Commission to develop and submit revised indirect cost plans
          and certifications in accordance with federal cost principles and department polices for
          negotiation of actual indirect cost rates. Recover indirect costs claimed in excess of the

22
     The Commission provided the amount of indirect cost and administrative fees recovered in fiscal 2009.


                                                          12 
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                           May 19, 2011


       negotiated rates; or, if the Commission declines to revise or certify its plans or fails to
       meet the established deadline, recover all Commission indirect cost claims for the period
       2002 to the present as provided by OMB Circular A-87, attachment A at H.1. and 2, and
       attachment E at E.4. In the event prior indirect cost claims are recovered, the amount of
       recovery will be $8,742,475 ($8,532,322 from page 1, plus $1,151,951 from page 11 less
       $941,798 to be recovered under the related OIG audit report on the Commission’s
       cooperative agreements).

   3. Suspend payment of indirect costs under all current awards and prohibit recovery for
      future awards until the Commission develops and negotiates acceptable indirect cost
      rates.

   4. Advise the Commission that its unsupported 2 percent administrative and direct data
      processing assessments are unallowable for federal participation on all current and future
      awards. Require the Commission to identify and remit all administrative and direct data
      processing assessments claimed for the period 2002 to the present. The amount of
      recovery for administrative fees will be $5,316,759 ($2,116,782 from page 1, plus
      $3,497,837 from page 11 less $297,860 to be recovered under the related OIG audit
      report on the Commission’s cooperative agreements.

   5. Advise the Department’s Indirect Cost Program Coordinator in the Office of Acquisition
      Management of the results of this audit and our recommendations. As the Commission
      receives both financial assistance and acquisition funding from multiple federal sources,
      the Department, in its cognizant agency role, should then immediately notify all of its
      bureaus as well as other federal agencies that have provided federal financial and
      acquisition assistance to the Commission from 2002 through the present. The Grants
      Officer should then obtain and provide evidence to OIG that the bureaus and other federal
      agencies have been notified.




                                                13 
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                            May 19, 2011


                    Appendix A: Objectives, Scope, and Methodology


The objectives of this indirect cost audit were to determine whether the rate computations for
indirect cost and administrative assessments (1) were supported by and consistent with certified
indirect cost proposals and established rate negotiations; (2) produced an equitable allocation of
indirect costs to Commission projects and activities; (3) were allowable in accordance with the
requirements of the Office of Management and Budget (OMB) Circular A-87; (4) were
appropriately and consistently applied; and (5) were accurately adjusted using roll-forward
provisions.

Our audit methodology included

   •   review of award and contract files at the Commission and award, contract, and technical
       files provided by the National Oceanic and Atmospheric Administration (NOAA);
   •   examination of financial, personnel, and performance records;
   •   interviews with NOAA and Commission staff;
   •   application of relevant analytical procedures using a risk-based approach to select areas
       for audit, and nonprobability sampling to identify select elements within those areas for
       detailed transaction testing; and
   •   review of OMB Circular A-133 single audit reports and related work papers and
       management letters issued by the Commission’s external auditor for the fiscal years
       ending June 30, 2002, through June 30, 2008.

We conducted fieldwork in the Commission’s Portland, Oregon, office during the periods of
January 20 to February 4 and March 30 to April 17, 2009; at the Commission’s independent
audit firm in Lake Oswego, Oregon; and at the offices of three of the Commission’s contractors
in Salem, Oregon, and Olympia and Seattle, Washington.

The audit included an evaluation of the Commission’s internal controls and its compliance with
laws and regulations as they related to financial assistance award provisions, specifically those
provisions pertaining to financial management and reporting. Key criteria we considered in
conducting the audit included the Commission’s applications and application assurances; the
NOAA awards and their respective standard and special terms and conditions; Department of
Commerce Financial Assistance Standard Terms and Conditions; OMB Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments; and 15 CFR Part 24, Uniform
Administrative Requirements for Grants and Cooperative Agreements to State and Local
Governments. Our review disclosed that the Commission did not adhere to applicable award
requirements as detailed in this report.

The Commission used computer-based accounting systems to track and report the financial
results of the project. To address the objectives of this audit, we obtained the Commission’s
payroll information in electronic format for the period July 1, 2001, through December 31, 2008.
As a result of an accounting system conversion, general ledger and accounts payable information


                                                14 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                             May 19, 2011


were received electronically for the period of March 15, 2002, through mid-January 2009. For
the initial portion of the Commission’s fiscal year 2002 excluded from the electronic submission,
the Commission provided system summary reports. To assess the reliability of the electronic
revenue and expenditure data, we

   •   looked for obvious errors in accuracy and completeness;
   •   interviewed Commission employees that were knowledgeable about the data;
   •   worked closely with Commission employees to identify any data problems;
   •   agreed general ledger totals from the electronic files to the audited financial statements;
   •   traced financial claims and contract invoices to the automated accounting systems and to
       source documents; and
   •   for costs in the indirect cost pool, traced selected accounts payable documents to the
       general ledger.

We did not rely solely on the computer-generated data as the basis for our audit conclusions. We
traced indirect cost proposals to the Commission’s automated accounting systems and to source
documents.

The audit was performed under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                15 
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                               May 19, 2011


                              Appendix B: Detail of Indirect Cost Audit


While the Commission incurred indirect costs during the period under audit, we could not
determine the actual amount of allowable indirect costs. Our testing was risk-based but did not
use statistical sampling, and we could not project the results of our testing to the universe of
indirect costs to derive audit-accepted indirect cost rates. The inability to project the results of
our testing of component cost does not affect our conclusions about the lack of acceptability of
the Commission’s indirect cost rates.

The Commission was deficient in every area that we tested. It did not submit indirect cost
proposals, nor did it submit the certifications necessary to appropriately claim indirect costs. In
addition, the deficiencies presented in this appendix also result in unallowable indirect cost
claims. Our indirect cost findings starting on page 3 of this report detail a significant number of
deficiencies contributing to our inability to accept the Commission’s indirect cost rates for 2002
through 2008; however, they do not detail the reasons for our conclusion that recalculated
indirect cost rates continued to include unallowable costs, unsupported costs, inconsistently
treated expenses, and direct costs treated as indirect. A discussion of our specific concerns
regarding the component cost aspect of the Commission’s indirect cost rates follows.

A. The Commission Treated Bonuses Inconsistently

Federal cost principles state that, to be allowable to a federal award, costs must be accorded
consistent treatment.23 A cost may not be assigned as a direct cost to a federal award if any other
cost incurred for a similar purpose in like circumstances has been allocated to the federal award
as an indirect cost.

The Commission did not treat individual costs consistently. Our review of costs charged to the
indirect cost pool identified three bonus payments totaling $24,481 that were inconsistently
charged to the indirect cost pool. Salary costs for the employees associated with these bonus
payments were generally charged directly to federal programs. For example, during fiscal year
2008 the Commission charged 85 percent of the bonus costs paid to one employee to the indirect
cost pool and the remaining 15 percent directly to the federal program. However, other
employees whose regular salaries were charged directly to programs received bonus payments
that were also charged directly to the federal program. The Commission’s failure to develop an
adequate costing policy resulted in an inconsistent treatment of costs.

B. The Commission Charged Unallowable Costs to the Indirect Cost Pool

Our review of costs charged to the indirect cost pool for fiscal years 2002 through 2008 revealed
the following instances of non-compliance with federal cost principles:

       1. Necessary and Reasonable Costs - Federal cost principles require that costs charged
          either directly or indirectly to federal programs be necessary and reasonable for proper

23
     OMB Circular A-87, attachment A at C.1.f.


                                                   16 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              May 19, 2011


        and efficient performance and administration of federal awards.24 A cost is reasonable if,
        in its nature and amount, it does not exceed that which would be incurred by a prudent
        person under the circumstances prevailing at the time the decision was made to incur the
        cost.25 Although the determination of “reasonableness” may be somewhat subjective, a
        determination of reasonableness shall consider whether the cost is, in part, generally
        recognized as ordinary and necessary for the operation of the governmental unit or the
        performance of the federal award and the market prices for comparable goods or
        services.26

        Our review of travel expenditures paid during fiscal years 2002 through 2008 revealed
        the Commission leased a vehicle for the exclusive use of a senior official at a cost of
        approximately $75,689, including monthly lease payments, insurance, repairs, and
        maintenance. Commission management stated that no cost-benefit analysis of the lease
        options was conducted. We requested mileage logs supporting the personal mileage
        charged as a taxable fringe benefit to the official, which should have been excluded from
        the Commission’s indirect cost pool. The official reported that he kept a log during the
        year, but did not retain the logs.

     2. Direct Cost Charged to Indirect Cost - Federal cost principles provide that costs are
        allocable to a particular cost objective if the goods or services involved are chargeable or
        assignable to such cost objective in accordance with the relative benefits received.27
        Costs charged to the Commission’s indirect cost pool should be costs that, although not
        directly benefitting a specific project or activity, provide a benefit to all projects and
        activities and should, therefore, be charged using the indirect cost rate. Costs that are
        specific to a federal program or other direct-funded project are not allocable to the
        indirect cost pool because these costs do not benefit all direct-funded programs. The
        Commission is charging direct-funded program costs to the indirect cost pool. For
        example, the Commission paid a software developer $40,000 for software required to
        administer the pikeminnow program, a Department of Energy direct-funded activity that
        was inappropriately charged to the indirect cost pool and allocated to other direct
        projects.

        We also identified instances in which the Commission’s front office staff was paid to
        plan and coordinate conferences for other federal and state agencies. For instance, the
        front office staff planned and coordinated a conference for the National Oceanic and
        Atmospheric Administration (NOAA). Although NOAA paid the Commission for its
        services, we identified travel costs associated with planning the conference that were
        charged to the indirect cost pool and, therefore, charged to direct-funded programs
        through application of the indirect cost rate. We were unable to determine the exact costs
        charged to the indirect cost pool for these activities because the costs are not associated
        with a direct-funded project code in the general ledger.


24
   OMB Circular A-87, attachment A at C.1.a.
25
   OMB Circular A-87, attachment A at C.2.
26
   OMB Circular A-87, attachment A at C.2.a. and c.
27
   OMB Circular A-87, attachment A at C.1.b. and C.3.


                                                        17 
U.S. Department of Commerce                                                                       Final Report
Office of Inspector General                                                                       May 19, 2011


     3. Inadequate Documentation of Costs - Federal cost principles and uniform administrative
        requirements state that costs must be adequately documented.28 Our tests of costs charged
        to the indirect cost pool revealed costs totaling $38,121 were not adequately supported.
        Receipts were either missing or failed to include sufficient detail to determine the
        allowability of the charges.

     4. Undocumented and Excessive Travel Costs - The Commission established a written travel
        policy based on federal travel regulations. Our tests of travel costs charged to the indirect
        cost pool identified costs totaling $24,221 that either did not comply with the travel
        policy or did not contain sufficient information with which to determine compliance. In
        addition, the Commission’s travel policy required all travelers to submit travel claims for
        reimbursement that document the purpose of the travel, the per diem reimbursement for
        the destination, and other incidental costs paid during the trip. We noted that a senior
        official did not submit the required travel claim forms, and several reimbursements
        exceeded the per diem amount for the location of the travel.

     5. Entertainment Costs - Federal cost principles state that the cost of entertainment,
        including amusements, diversions, and social activities and any directly associated costs
        (such as tickets to shows or sport events, meals, lodging, rentals, transportation and
        gratuities), are unallowable.29 Our tests of expenditures charged to the indirect cost pool
        during fiscal years 2002 through 2008 identified a total of $40,790 in what appear to be
        entertainment costs. For example, Commission staff calculated that the Commission paid
        $30,722 for its annual holiday parties between 2002 and 2008. Our audit identified
        additional costs associated with holiday parties that were not included on the
        Commission’s list, leading us to believe that the actual entertainment costs paid by the
        Commission are likely higher than amounts identified by either the Commission or by
        our review.

     6. Capital Expenditures Charged to Expenses - Federal cost principles and uniform
        administrative requirements define equipment as non-expendable tangible personal
        property having a useful life exceeding one year and an acquisition cost that equals the
        lesser of $5,000 or the governmental unit’s own capitalization threshold.30 The
        Commission’s capitalization policy states that “capital expenditures are any purchase of
        equipment of property costing more than $1,000 and with a life expectancy of more than
        one year.”

        The indirect cost rate proposals the Commission initially provided us in January 2009
        improperly included in the indirect cost pool a significant number of equipment
        purchases that met the Commission’s $1,000 capitalization threshold. For this and other
        reasons, we requested Commission management to prepare corrected proposals, which
        were provided to us in March 2009. According to Commission management, capital costs
        had been removed from the indirect cost pool. However, tests of the revised indirect cost

28
   OMB Circular A-87, attachment A at C.1.j., and 15 CFR § 24.20(b)(2), (5), and (6).
29
   OMB Circular A-87 (1995) at attachment B.18 and OMB Circular A-87 (2004) at attachment B.14.
30
   OMB Circular A-87 (1995) at attachment B.19.a.(2); OMB Circular A-87 (2004) at attachment B.15.a.(2); and
uniform administrative requirements, 15 CFR 24.3.


                                                      18 
U.S. Department of Commerce                                                                        Final Report
Office of Inspector General                                                                        May 19, 2011


        proposals identified costs totaling $53,872 for items that should have been capitalized.
        For example, we identified a search engine costing $27,005 that the Commission
        accounting staff agreed was an asset that should have been capitalized, but the
        Commission expensed the cost, charged it to the indirect cost pool, and failed to remove
        it from the revised indirect cost proposal.

     7. Contributions - Federal cost principles state that recipient contributions, including cash,
        property and services, to others are unallowable.31 Our tests of the Commission’s revised
        indirect cost pools identified transactions totaling $20,215 for unallowable gifts and
        donations. For example, we identified a number of payments for such items as gifts,
        memorials, charitable donations, and a $1,500 gift given to a retiring NOAA official.

     8. Lobbying Costs - Federal cost principles provide that the cost of certain influencing
        activities associated with obtaining grants, contracts, cooperative agreements, or loans is
        unallowable.32 During the audit period, the Commission paid a lobbying firm for both
        lobbying and non-lobbying activities. However, the firm’s invoices did not provide
        sufficient detail to ensure that they did not contain unallowable lobbying costs. Our
        testing identified invoices totaling $11,618 that lacked sufficient detail to determine
        whether the costs were allowable.

     9. Bonus Payments Inadequately Supported - Federal cost principles require, in part, that
        salary costs be charged to cost objectives in accordance with the relative benefits
        received and in accordance with governmental unit’s established policy.33 The Circular
        further details the minimum documentation required to support allowable labor
        allocations. Tests of salary costs charged to the indirect cost pool revealed the
        Commission charged employee bonuses totaling $311,445 without the support required
        to demonstrate that payments complied with the Commission’s bonus policy. For
        example, the Commission paid a bonus totaling $34,276 to a manager in March 2007;
        however, there was no performance evaluation to support the bonus.

     10. Salary and Bonus Cost Charged to Incorrect Project - Federal regulations require that
         employees charging salary costs to multiple cost objectives complete personnel activity
         reports documenting the actual time and effort worked on each cost objective as the basis
         for allocating cost to direct projects and indirect activities.34 As discussed in this report,
         the Commission had time distribution systems and a project cost accounting system that,
         if properly implemented, would have adequately accounted for direct and indirect labor
         and related fringe benefits. However, the systems were not properly implemented and
         were subject to arbitrary override. As a result, tests of labor and fringe benefits charges

        •    Identified seven employees whose salary costs of $1,812,223 were charged to the
             indirect cost pool even though at least part of the employees’ job responsibilities
             related to direct-funded projects.

31
   OMB Circular A-87 (1995) at attachment B.13 and OMB Circular A-87 (2004) at B.12.
32
   OMB Circular A-87 (1995) at attachment B.27 and OMB Circular A-87 (2004) at B.24.
33
   OMB Circular A-87 (1995) at attachment B.11 and OMB Circular A-87 (2004) at B.8.
34
   OMB Circular A-87 (1995) at attachment B.11.h. (4) and (5) and OMB Circular A-87 (2004) at B.8.h.(4) and (5).


                                                       19 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                             May 19, 2011


       •   Disclosed that a number of Commission employees received bonuses in fiscal year
           2008 due to their work on the Salmon Disaster Program. Because this program is a
           direct-funded activity, it should be established as a direct program in the
           Commission’s project cost accounting system and general ledger, and indirect costs
           should be allocated to the program as done with other federally funded projects.
           However, the Commission treated the Salmon Disaster Program as an indirect activity
           and charged all associated costs, including labor and benefits, to the indirect cost
           pool. In the absence of personnel activity reports, we were unable to quantify
           mischarged costs related to this project.

       •   Revealed instances in which three staff members and a senior official performed
           direct-funded activities; however, their salary costs were charged to the indirect cost
           pool. We were unable to quantify the salary costs attributable to the direct funded
           activities because the costs were not separately identified in the general ledger or
           supported by the requisite personnel activity reports.




                                                20 
U.S. Department of Commerce                                     Final Report
Office of Inspector General                                     May 19, 2011


                              Appendix C: Commission Response
                                    (Cover Letter Only)




                                            21 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              22 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              23 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              24 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              25 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              26 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              27 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              28 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              29 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              30 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              31 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              32 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              33 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              34 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              35 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              36 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              37 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              38 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              39 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              40 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              41 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              42 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              43 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              44 
U.S. Department of Commerce         Final Report
Office of Inspector General         May 19, 2011




                              45 
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                               May 19, 2011


                 Appendix D: OIG Comments on Commission Response


OIG reaffirms our conclusion that the Commission did not comply with the minimum
requirements necessary to recover indirect costs. Consequently, all indirect costs claimed by the
Commission during the audit period are called into question; none of the $15.6 million in indirect
costs or the $2.9 million in administrative fees recovered by the Commission during that period
is allowable for federal participation. We also reaffirm our recommendations to the NOAA
Grants Officer. This appendix discusses the basis for our findings and directly addresses the
Commission’s response, which is available at our office.

As a longtime recipient of federal financial assistance, the Commission has significant
experience with federal cost principles, including those principles requiring the preparation of
indirect cost rate proposals, certifications, and adequate supporting documentation in order to
claim indirect costs. Yet even though its previous indirect cost agreement lapsed around 1997, at
the time of our audit—13-plus years later—the Commission still had not negotiated a new
agreement, despite its acknowledgement that it had experienced significant growth. Likewise,
although the Commission claims that any disallowance of its funding would have an adverse
effect on its work, it risked disallowance by choosing not to revise its indirect cost rate despite its
familiarity with federal principles regarding indirect cost claims. In January 2009, the OIG audit
team found such serious deficiencies that we delayed our audit to allow the Commission to
develop revised cost proposals, methodology, and policies. Even with the additional time, the
Commission produced inadequate proposals that did not equitably distribute indirect costs.

Moreover, in preparing its response to our draft report, the Commission again did not provide
necessary details and supporting documentation for its assertions that it has revised its indirect
cost rate proposals for the audit period. Had it done so, we would have evaluated those actions
and may have been able to credit the Commission with those accomplishments in this final
report.

Finding I: The Commission Did Not Submit, Certify, or Adequately Support Indirect Cost
Rate Proposals

Despite multiple notifications by the Department of Commerce, the Commission did not submit,
certify, or adequately support its indirect cost rate proposals as required in order to claim indirect
costs. The Commission disagreed with our finding because, it claimed, it had not been formally
notified that Commerce was the cognizant federal agency for indirect cost, Commerce did not
request the submission of indirect cost rate proposals, and Office of Management and Budget
(OMB) Circular A-87 did not require it to submit its proposals. OMB does not specifically
designate cognizant agencies for indirect cost for all federal grantees, including the Commission;
however, as the Commission’s primary federal funding source since 2003, the Department of
Commerce is clearly cognizant for the Commission’s indirect cost, in accordance with the
following provisions of OMB Circular A-87, attachment E at section D.1.b.:

       …The cognizant agency for all governmental units or agencies not identified by
       OMB will be determined based on the Federal agency providing the largest


                                                  46 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              May 19, 2011


       amount of Federal funds. In these cases, a governmental unit must develop an
       indirect cost proposal in accordance with the requirements of this Circular and
       maintain the proposal and related supporting documentation for audit. These
       governmental units are not required to submit their proposals unless they are
       specifically requested to do so by the cognizant agency….

The Commission had multiple opportunities to submit its indirect cost proposals and supporting
data over the years:

   1. The Department’s financial assistance agreements, executed by both the National
      Oceanic and Atmospheric Administration (NOAA) Grants Officer and the Commission,
      not only incorporated OMB Circular A-87 by reference but also included other indirect
      cost requirements fully consistent with the circular.

   2. NOAA’s award notification letters accompanying its financial assistance offers clearly
      include directions to the Commission to follow the Department’s Financial Assistance
      Standard Terms and Conditions pertaining to indirect cost, which are incorporated by
      reference in each award. Those provisions set forth submission and support requirements
      for indirect cost rate proposals.

   3. The Department of Commerce pre-award notification requirements for grants and
      cooperative agreements, published in Federal Registers spanning the audit period,
      provide specific instructions directing the submission of indirect cost rate proposals and
      supporting documentation. These requirements are incorporated by reference in NOAA
      financial assistance awards.

   4. NOAA’s Administrative Standard Terms and Conditions contains specific provisions
      addressing expired indirect cost rates and directing award recipients to submit a request
      to renegotiate the indirect cost rate agreement, along with required documentation, to
      their cognizant federal agency to update their negotiated rate agreements. These
      provisions are included in each financial assistance award.

The Commission’s previous negotiated indirect cost agreements, dated 1986 and 1996, have long
since lapsed. As we reported, the 1996 agreement with the Bonneville Power Administration
covered rates for 1993 through 1997. The Commission asserts that its methodology was accepted
at that time and has not changed in the intervening years—despite the Commission’s significant
growth, addition of new programs and activities, and indirect cost rate proposals that show the
contrary. When we requested its indirect cost methodology and costing policy in January 2009,
the Commission was unable to produce an approved methodology that was still applicable for the
audit period. We then suspended the audit—in part to give the Commission an opportunity to
develop the methodology and policy—but when we resumed the following March, neither the
methodology nor the policy were available.

Initial testing of the rates provided to us in January 2009 disclosed serious deficiencies in the
Commission’s rate proposals. When we suspended the audit that month, we allowed the
Commission to prepare revised proposals, which it provided in late March 2009. Preliminary



                                                 47 
U.S. Department of Commerce                                                                     Final Report
Office of Inspector General                                                                     May 19, 2011


testing of the revised proposals demonstrated that they were still inadequate for reasons detailed
in this report; therefore, we questioned the rates as they had been calculated and applied.

At the time of our audit, the Commission was only able to provide an indirect cost rate
certification for its fiscal year 2007, and it prepared the certification for 2008 while we were on
site. Commission management advised us that there were no indirect cost rate certifications
prepared for the other years in our audit period. The certificates for fiscal years 2002 through
2006 (which the Commission included in attachment 7 of its response) were for cost allocation
plans35 rather than indirect cost rate plans;36 therefore, these certifications are not applicable.

As we reported in appendix A, we met with the Commission’s independent auditors and
reviewed the work accomplished in support of the Commission’s single audits to determine the
extent to which our audit could build upon that work. Contrary to the Commission’s statement
that the indirect cost rate is calculated on an annual basis as part of the Commission’s A-133
annual financial audit, representatives of the Commission’s audit firm confirmed that the
Commission’s single audits did not include review of the indirect cost rate proposal beyond
ensuring that the rates charged to federal awards agreed with the rates proposed.

The Commission also asserted that by accepting and approving its final financial status reports,
the Grants Office did not disallow any portion of the indirect cost charges identified in the
reports. However, a Grant Officer’s acceptance and approval of such reports in the award close-
out process does not affect a federal agency’s right to disallow costs and recover funds on the
basis of a later audit or other review.37 More specifically, refunds are required where indirect
cost rate proposals are later found to have included unallowable or unallocable costs.38

Finding II: The Commission’s Unsubmitted Indirect Cost Proposals Were Inadequate, and
Rates and Claims Were Unallowable

The Commission disagreed with our finding, contending that the application of its indirect cost
rates produced consistent and equitable distributions of indirect costs, and the indirect cost rate
proposals included as attachment 7 of its response are (with a few minor exceptions) the same as
those provided to us in January 2009. However, the Commission also acknowledged that it had
revised, or was planning to revise, its handling of numerous activities to ensure equity in the
future. For the many reasons detailed in our draft report and reaffirmed here, both groups of
indirect cost rate proposals provided to us in January and March 2009—and thus the rates and
indirect cost claims based on these proposals—are not allowable for federal participation due to
the inclusion of unallowable costs, use of inconsistent costing policies, and inequitable
distribution of costs to projects. We also specifically note that the Commission’s proposals
clearly demonstrate inconsistency in its handling of data processing fees, offsets for 2 percent
administrative fees, and carry-forward adjustments.


35
   OMB Circular A-87, attachment C at E.4.
36
   OMB Circular A-87, attachment E at D.3.
37
   Uniform Administrative Requirements for Grants and Cooperative Agreements to State and Local Governments,
15 CFR § 24.51(a).
38
   OMB Circular A-87, attachment E at E.4.


                                                     48 
U.S. Department of Commerce                                                                         Final Report
Office of Inspector General                                                                         May 19, 2011


In its response, the Commission referred to shifting time between projects to correct employee
coding errors. While we had no objections to these corrections, we did disagree with the
Commission’s decision to override the actual hours recorded by employees in its time
distribution system and instead charge time to projects based on budgeted percentages, or adjust
blocks of time between projects. Because direct labor is a part of the modified total direct cost
base the Commission uses to allocate indirect cost to projects, such shifts not only produce
inequitable distributions of indirect cost to projects but also, as demonstrated in our report on two
of the Commission’s cooperative agreements, can result in unallowable claims of indirect cost in
excess of the approved budget line items.

The Commission also downplayed the initial impact of indirect costs that had been misclassified
as direct. But improper identification can overstate the indirect cost pool, understate the modified
total direct cost base, increase the indirect cost rate, and possibly inequitably distribute the cost
of the direct activity to other projects.

The Commission’s consistent implementation of its cost accounting system should not be
influenced by the choice of billing mechanisms used for any project (such as the fisheries
disaster awards or the suite of State of California projects). All projects should be assigned a job
number and must follow the same cost accounting method, recording all direct costs applicable
to the job and applying the Commission’s indirect cost rates. Revenues should be credited to the
project cost account. Project losses due to the use of an inadequate billing method cannot be
transferred to other projects or recovered through the indirect cost rate.39 Because the
Commission is a regional government entity and because it operates cost-reimbursable awards,
any gains must be returned to the funding source. Furthermore, project gains and losses cannot
be used to offset indirect cost without producing unallowable, inequitable distributions to the
remainder of the Commission’s projects.

If, as the Commission asserts, activities such as the fisheries disaster projects, the State of
California suite of projects, and pass-through awards demand different levels of administration,
in the future it may wish to consider whether a multiple-allocation-base indirect cost method or
special indirect cost rates better address those differences. Whatever course the Commission
chooses, it must adhere to OMB guidance. Unsupported assessment rates that are not
subsequently reconciled to actual costs, such as the 2 percent applied to the fisheries disaster
awards and pass-through activities and the fees attached to the suite of State of California
projects, are not allowable.

The Commission also asserted that its application of the 2 percent ancillary fees was covered
under OMB Circular A-87, attachment A at section A.2.b. Alternative reimbursement systems
for administrative costs are acceptable only if the fees generated are periodically reconciled to
actual costs,40 but the Commission had no such provision for fee reconciliation. Furthermore,
fee-for-service tests must be worked out with federal funding agencies as an alternative, rather
than a supplementary, mechanism for paying administrative costs. Such arrangements are

39
  OMB Circular A-87, attachment A at C.3.c. and F.3.b.
40
  OMB Circular A-87, attachment E at A.3, and A Guide for State, Local and Indian Tribal Governments: Cost
Principles and Procedures for Establishing Cost Allocation Plans and Indirect Cost Rates for Agreements with the
Federal Government, ASMB C-10 at 2.11, 2-1.


                                                       49 
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                                 May 19, 2011


intended to reduce the burden associated with maintaining systems for charging these costs to
projects and preparing and approving cost allocation plans. If the Commission intends to pursue
this method in the future, it should consult with the Department’s Indirect Cost Coordinator to
determine an acceptable alternative mechanism to its indirect cost rate.

The Commission contended that, by adjusting its indirect cost pool by the amount of ancillary
fees collected on pass-through funds, it eliminated the potential for duplicate recovery of the
costs to administer pass-through activities. These costs are included in the indirect cost pool and
distributed to all other direct projects. However, the Commission did not use the administrative
fees it collected as an offset to the indirect cost pool until its fiscal year 2006. This is just one of
the reasons that the indirect cost rates for fiscal years 2002 through 2005 were determined to be
inequitable. Administrative fee recoveries for 2002 through 2005 ranged from $225,169 to
$255,367, according to the Commission’s indirect cost rate proposals.

From 2006 through 2009, the Commission offset the indirect cost pool by the amount of
administrative fees it collected on pass-through funds. However, as we have demonstrated,
because the Commission does not identify the administrative expenses associated with pass-
through activities, there is no assurance that the offsets did not include unallowable gains or
losses inequitably distributed to all of the Commission’s direct projects. Also, the fisheries
disaster awards were direct projects, and the associated costs to manage or oversee these projects
represent direct costs that must be excluded from the indirect cost pool and included in the
modified total direct cost base in order to bear a fair share of indirect cost. Had the Commission
properly handled these costs, the indirect cost rates would have been further reduced. Further,
although the Commission contended that the 2 percent fee was applied because funding agencies
improperly and arbitrarily imposed limits on indirect cost recovery, (1) it was not forced to
accept the funding agencies’ offer of the awards and (2) agreeing to use a different billing
method does not excuse the Commission from the requirement to consistently apply its normal
cost accounting practice.

Additionally, the Commission appears to have misunderstood the context of the column entitled
“Accepted by Audit” in table 1 of the report. The column refers to the OIG audit, not the
Commission’s independent auditors. However, as noted above and contrary to the Commission’s
assertions, representatives of its independent audit firm stated that its single audits did not
include a review of the Commission’s indirect cost rate proposal beyond ensuring that the rates
charged to federal awards agreed with the rates proposed.

The Commission’s response to the draft audit report confirmed that although it used a fixed
indirect cost rate with a carry-forward provision, for several years (fiscal years 2002 through
2005) it did not adjust its estimated indirect cost rates to actual rates. As we reported, in 2006 the
Commission retroactively adjusted its claimed indirect cost rate for its fiscal year 2006 from 15
to 13 percent. However, that adjustment and those for subsequent years did not properly employ
the carry-forward provision, which provides for identifying the difference between estimated and
actual indirect costs for an entity’s fiscal year and carrying that difference forward as an
adjustment to the subsequent fiscal year’s indirect cost pool and fixed indirect cost rate
computation. A review of the Commission’s indirect cost rate proposals for 2007 through 2009
shows that rather than applying the dollar difference to the indirect cost pool of the following
fiscal year, it selectively applied either none or a portion of the difference between the estimated


                                                   50 
U.S. Department of Commerce                                                                          Final Report
Office of Inspector General                                                                          May 19, 2011


indirect cost rate claimed and the actual rate incurred to the rate computed for the following
fiscal year. If there was a residual percentage left, it carried that forward to yet another fiscal
year. Rolling forward the difference in rates rather than the difference in indirect dollars and
applying this amount forward over several years fails to accurately and timely adjust indirect cost
recoveries to actual.

Conclusion

The Commission disagreed with our conclusion and contended that if NOAA disallowed its
indirect cost claims, its work would be jeopardized because it has no other funding source for the
administration of its awards.

Nevertheless, we reaffirm our findings. The Commission’s response stated that it has taken
several corrective actions; however, since our September 2009 exit conference and even since
the issuance of our draft report, the Commission has not made sufficient progress in the
following areas:

     •   reconstructing acceptable indirect cost rates for 2002 through the present and identifying
         a cumulative net carry-forward adjustment,

     •   developing a revised indirect cost rate methodology,

     •   negotiating a corrective action plan for past excess indirect cost claims and ancillary fees,
         and

     •   negotiating an indirect cost rate agreement with the Department for future years.41



Subsequent Events

The Commission disagreed with our discussion of its proposed indirect cost rates for 2009, and
claimed that its 2 percent administrative fee for pass-through funds is an accepted and approved
rate. Furthermore, the Commission contended that our report’s statement that “we do not accept
the Commission’s indirect cost rates or administrative fees…” implies that OIG disallows, rather
than questions, the costs. (Disallowance is the purview of Department of Commerce
management.)



41
  With regard to developing an indirect cost rate methodology for the future and reconstructing acceptable indirect
cost rates that factor in a proper carry-forward provision, we recommend the Commission review the provisions of
OMB Circular A-87, attachment E at E, A.3; A Guide for State, Local and Indian Tribal Governments: Cost
Principles and Procedures for Establishing Cost Allocation Plans and Indirect Cost Rates for Agreements with the
Federal Government, ASMB C-10; and U.S. Department of Labor Guidance at
http://dol.gov/oasam/programs/boc/costdeterminationguide/main.htm, which includes technical assistance, exhibits,
cost policy statements, checklists and other indirect cost guidance referenced by the U.S. Department of Commerce
General Indirect Cost Rate Program Guidelines for Grantee Organizations, dated December 18, 2007, and April 17,
2008.


                                                        51 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                             May 19, 2011


However, we reaffirm our findings. The Commission used a 13 percent rate for proposing
indirect cost for fiscal year 2009. According to data provided in attachment 7 of its response, the
Commission proposed a 12.38 percent rate for 2010 based on a 12.37 percent incurred rate for
2009.

As we reported, the Commission’s 1996 indirect cost negotiation agreement with the Bonneville
Power Administration, which included a 2 percent administrative assessment rate, applied to the
period from July 1, 1992, through June 30, 1997, and is no longer applicable. The Commission
had no support for its 2 percent rate. It did not account for administrative expenses associated
with pass-through funds and therefore could not demonstrate whether the assessment represented
either an over- or under-recovery of pass-through administration costs. Offsetting the indirect
cost rate by either over- or under-recovered fees is not allowable.

With regards to the terminology we used, not accepting indirect costs is equivalent to
questioning them. We did not disallow the costs but rather recommended disallowance and
recovery. The authority to disallow costs is reserved exclusively for the federal Grants Officer.

Appendix A: Objectives, Scope, and Methodology

The Commission objected to our statement that the audit was a performance audit conducted in
accordance with generally accepted government auditing standards, and contended that based on
the audit objectives it should have been conducted under financial audit standards. However,
OIG maintains that the standards used were appropriate.

Appendix B: Detail of Indirect Cost Audit

A. The Commission Treated Bonuses Inconsistently

The Commission disagreed with our findings concerning the methods it used to calculate
bonuses for its employees. However, its response underscores a lack of consistency in its
treatment of bonuses as direct or indirect costs and acknowledges a change in its bonus
methodology before and after fiscal year 2006. Federal cost principles applicable to the
Commission require that each item of cost—either direct or indirect—be treated consistently in
like circumstances.

The Commission’s assertion that it included a portion of the project managers’ bonuses in the
indirect cost pool because they were providing management oversight of all projects for the
benefit of the Commission is inconsistent with our audit findings. In the examples we cited,
Commission staff charged all of their time to a direct project; however, their bonuses were
charged—in whole or in part—to the indirect cost pool. Under a pay-for-performance system, if
an employee applied time exclusively to specific direct projects, the bonus is calculated based on
the employee’s performance on those projects. The bonus should thus be charged to the direct
project, in keeping with the Commission’s policy statement that any rewards will be paid from
the project/program budget. Charging the bonus to the indirect cost pool would result in an
inequitable distribution of the bonus to all direct projects through the application of the
Commission’s indirect cost rate.



                                                52 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              May 19, 2011


The Commission provided additional information justifying its treatment of select immaterial
service costs under the purchase method of accounting; accordingly, we have deleted that portion
of the draft report in preparing this final report.

B.1. Necessary and Reasonable Costs

The Commission gave further details regarding the vehicle it leased for use by a senior official. It
supplied some dollar amounts to justify its decision to lease the Lexus but provided no lease-
versus-purchase analysis or other documentation in support of the figures. Furthermore, the
Commission does not dispute that the official was unable to provide logs to distinguish between
official and personal use of the vehicle.

In the absence of the necessary support, we questioned the Commission’s inclusion of the total
cost of the Lexus as well as the related maintenance, repair, fuel, and insurance costs in the
indirect cost pool when the vehicle was clearly provided to the official for both business and
personal use. Contrary to the Commission’s assertion, our report did not question this official’s
pay, fringe benefits, bonuses, or perquisites. However, in future deliberations of whether to
convert from a mileage-based to a monthly automobile allowance, the Commission should be
aware that, given its position as a regional government entity receiving virtually all of its funding
from federal and state governments, the personal use of a Lexus, reimbursements for local meals,
and U.S. government executive-level pay risks challenge under federal cost principles
concerning whether the individuals concerned acted responsibly.42

B.2. Direct Cost Charged to Indirect Cost

While the Commission did not explicitly concur with our finding exemplified by the accounting
system upgrade and its event planning practices, it claimed to have taken necessary corrective
actions in 2009 and 2010, respectively.

B.3. Inadequate Documentation of Costs

The Commission agreed that some of its documentation was insufficient. It commented that its
process was burdensome and stated that in 2010 it implemented an electronic system to ensure
that its rates comply with Commission policies and that required receipts are retained and
submitted prior to reimbursement. While the Commission did not explicitly concur with our
finding, we accept its corrective actions as concurrence. However, we note that because these
actions were not taken until 2010, the changes apply only to the future.

B.4. Undocumented and Excessive Travel Costs

The Commission stated that its prior travel policy was based in part on federal regulations, but
agreed that the policy was not clear. It did not specifically concur with our finding, but noted that
it has since updated and finalized a new travel policy applicable to all employees from now on.
The policy defines the support required by travel type, assures that travel costs are necessary and
reasonable, and requires valid justification for departure from established policies.

42
     OMB Circular A-87, attachment A at C.2. and C.2.d.


                                                          53 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              May 19, 2011


B.5. Entertainment Costs

The Commission contended that the costs of its annual holiday party constituted employee
morale, health, and welfare costs. As such, these costs were not unallowable entertainment
expense because the events provided opportunities to thank and reward employees for their
service during the year. The Commission further asserted that the auditors did not discuss these
issues with its staff during the audit.

Federal cost principles do state that certain expenses related to employee health, morale, welfare,
and performance, as well as employer-employee relations, are allowable.43 However, the costs of
entertainment, including amusements, diversions, and social activities, and any costs directly
associated with such costs (such as tickets to shows or sports events, meals, lodging, rentals,
transportation, and gratuities) are unallowable.44 The expenses we questioned were related to
events identified as holiday or Christmas parties, which were either held at downtown hotels or
catered at Commission offices. In all instances alcohol was served. Costs associated with such
events are unallowable.45

We do not agree with the assertion that our auditors did not discuss this issue with Commission
staff during the audit. We specifically requested supporting documentation for numerous holiday
party charges in January 2009 and again in March in conjunction with our tests of the
Commission’s indirect cost rate proposals. We also received a workbook from Commission
accounting staff in support of prospective adjustments to the indirect cost rate proposals; the
workbook included a spreadsheet titled “Christmas and Xmas Sort.”

B.6. Capital Expenditures Charged to Expenses

Regarding our finding concerning capital expenditures that had been charged to expenses, the
Commission asserted that it had done an extensive analysis during the audit to identify assets
requiring capitalization in keeping with its $1,000 capitalization threshold. It further contended
that discussion during the audit regarding the Google search engine, which it characterized as
software, was brief and inconclusive. The Commission also stated that it had not received a
detailed list of questioned costs from the auditors despite requests for such information at the exit
conference and in subsequent emails.

In response to our January 2009 request that the Commission correct its indirect cost rate
proposals, it identified select equipment charges that should have been capitalized and eliminated
from the indirect cost pool. However, our subsequent tests of the March 2009 revised indirect
cost rate proposals identified other items, including the Google search engine, that met the
Commission’s capitalization threshold but that had not been removed from the indirect cost pool.
The discussion of the search engine during the audit was brief principally because the
Commission’s supervisory accountant characterized this item as hardware and agreed that it
should have been capitalized and removed from the indirect cost pool. Therefore, we reaffirm
our finding.

43
   OMB Circular A-87 (1995) attachment B at 17 and (2004) attachment B at 13.
44
   OMB Circular A-87 (1995) attachment B at 18 and (2004) attachment B at 14
45
   The Commission excluded the cost of the alcohol as unallowable.


                                                      54 
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                             May 19, 2011


During the audit we had extensive discussions with the Commission’s staff regarding items we
tested, and Commission staff assisted in locating supporting documentation for those items. We
acknowledge that the Commission also requested a list of questioned costs, but the volume of
information for this project limited that request.

B.7 and B.8. Contributions and Lobbying Costs

The Commission’s certification of its indirect cost rate proposal included a statement that to the
best of its knowledge and belief all costs included in the proposal are allowable in accordance
with award provisions and the federal cost principles of OMB Circular A-87. However, our
findings and the Commission’s responses demonstrate that certification to be incorrect. First, the
Commission provided a newly revised chart of accounts (as response attachment 12) that
included a new series of accounts to identify and segregate unallowable costs. The Commission
stated that it also reviewed all financial data for 2002 through 2008 and removed potentially
questionable items to the new general ledger accounts, but its response did not provide us either
revised proposals or supporting documentation. Additionally, the Commission agreed that
invoices for legal services were insufficient to identify the portion applicable to unallowable
lobbying. It stated that it had discussed with its legal firm the need to identify the time spent on
lobbying so that unallowable costs are properly excluded in the future, but this corrective action
appears to be limited to instructing the legal firm to supply sufficiently detailed invoices; the
Commission made no mention of obtaining the information necessary to identify and exclude
lobbying expenses.

B.9. Bonus Payments Inadequately Supported

During our fieldwork, we reviewed employee personnel files for evidence of the documentation
required to support bonuses as set forth in the Commission’s bonus policy. When required
support was either incomplete or missing from the files, we gave the Commission an additional
opportunity to locate and provide the missing documentation. We questioned bonuses only when
neither our search nor the follow-up efforts by the Commission produced the necessary support
for the bonuses awarded. The Commission reported that supporting documentation for program
managers’ and executive staff members’ bonuses had not been forwarded to Human Resources
for proper filing, but the situation has been corrected. It provided no support for its statement.

B.10. Salary and Bonus Cost Charged to Incorrect Project

As we reported, the Commission’s time distribution system, if properly implemented, would
provide an adequate basis for allocating time among direct projects and indirect activities.
However, some labor, fringe benefits, and bonus distributions did not match where staff actually
charged their time.

Additionally, the Commission neither had a cost policy statement nor followed a consistent
practice for costing bonuses. In some instances, the Commission charged employee bonuses
direct and in proportion to where the employee charged his time. In other instances, bonuses for
staff charging direct to projects were charged to the indirect cost pool. The Commission needs to
develop a cost policy statement that specifically addresses bonuses and follow it consistently.



                                                 55 
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                               May 19, 2011


The Commission’s response confirms that it initially classified direct projects, such as event
planning and the fisheries disaster projects, as indirect activities. While the Commission
contended that it recently received sufficient funding for event planning to establish it as a direct
project, that does not change the effects of the initial handling of the project on past indirect cost
rate proposals and net carry-forward adjustments. Similarly, the Commission’s contention that
once it understood the level of effort involved, it directed staff to allocate time to a project
account to be offset by the 2 percent administrative assessment neither corrects the improper
handling of these projects in the past nor properly accounts for them now.

Closing

During our audit, we found significant deficiencies in every area of indirect cost we tested. The
Commission did not submit, certify, or adequately support its indirect cost rate proposals. In
addition, its unsubmitted indirect cost proposals and rates were not allowable in accordance with
federal guidelines in that (1) implementation of its cost accounting system was inadequate; (2) it
had not established an adequate indirect cost methodology or policies, procedures, and controls;
(3) its method of distributing costs was inequitable; and (4) it had not adjusted proposed indirect
cost rates to reflect actual costs.

Therefore, for the reasons outlined in this appendix, we reaffirm our findings that the
Commission did not comply with the minimum requirements necessary to recover indirect costs
under federal awards. We also reaffirm the recommendations we made to the NOAA Grants
Officer.




(OAE-19467)



                                                  56 
